CAPITAL CASE
No.

20-

IN THE
SUPREME COURT OF THE UNITED STATES
Alan Eugene Miller

— PETITIONER

(Your Name)
VS.
Commissioner, Alabama Department of Corrections — RESPONDENT(S)
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to ﬁle the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
x Petitioner has previously been granted leave to proceed in forma pauperis in
D
the following court(s):
United States District Court for the Northern District of Alabama

D Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
x Petitioner’s afﬁdavit or declaration in support of this motion is attached hereto.
D
D Petitioner’s afﬁdavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
D The appointment was made under the following provision of law:
, or
D a copy of the order of appointment is appended.
/s/ Tobias S. Loss-Eaton
(Signature)

